Case: 18-14396

Date Filed: 12/02/2019

Page: 1 of 6
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14396
Non-Argument Calendar

D.C. Docket No. 8:17-cv-00554-JDW-TGW
ARNOLD MAURICE MATHIS,
Plaintiff-Appellant,
versus
ZULAIKA ZOE VIZCARRONDO,
Defendant-Appellee,
JAMES MICHAEL EVANS,
Defendant.

Appeal from the United States District Court
for the Middle District of Florida
(December 2, 2019)
Before MARCUS, ROSENBAUM and BLACK, Circuit Judges.
PER CURIAM:

Appendix A

Case: 18-14396

Date Filed: 12/02/2019

Page: 2 of 6

Arnold Mathis, a prisoner proceeding pro se, appeals the dismissal of his 42
U.S.C. § 1983 action for violations of the Fourth, Fifth, and Fourteenth
Amendments. First, Mathis asserts the district court erred in dismissing his
unlawful arrest claims as barred by the statute of limitations. Second, he contends
the district court erred in dismissing his illegal search claim on the basis of
qualified immunity. After review, we affirm the district court.
I. DISCUSSION
A. Unlawful Arrest Claims
A § 1983 claim is governed by the forum state’s residual personal injury
statute of limitations. Burton v. City ofBelle Glade, 178 F.3d 1175, 1188 (11th
Cir. 1999). In Florida, “a plaintiff must commence a § 1983 claim . . . within four
years of the allegedly unconstitutional or otherwise illegal act.” Id.-, see also Fla.
Stat. § 95.11(3)(p). The statute of limitations “does not begin to run until the facts
which would support a cause of action are apparent or should be apparent to a
person with a reasonably prudent regard for his rights.” Rozar v. Mullis, 85 F.3d
556, 561-62 (11th Cir. 1996). When an allegedly false arrest is followed by
criminal proceedings, the statute of limitations for the false arrest begins to run
once the claimant becomes detained pursuant to legal process. Wallace v. Kato,
549 U.S. 384, 397 (2007).

2

Case: 18-14396

Date Filed: 12/02/2019

Page: 3 of 6

The district court did not err in dismissing Mathis’s unlawful arrest claims as
barred by the statute of limitations. See Hughes v. Lott, 350 F.3d 1157, 1159-60
(11th Cir. 2003) (reviewing de novo a district court’s dismissal for failure to state a
claim under 28 U.S.C. § 1915(e)(2)(B) and viewing the allegations in the
complaint as true). Accepting Mathis’s version of the facts as true, he learned 4
there was no probable cause supporting his December 2011 arrest on February 4, $
2013$ Thus, the facts supporting his unlawful arrest action were apparent on
February 4, 2013, making that date the latest possible accrual date for the statute of
limitations. Even using this date, the four-year statute of limitations would have
run out on February 4, 2017, almost one month before Mathis filed his complaint
on March 1, 2017.
Mathis also contends the statute of limitations was equitably tolled because
he was prevented from asserting his rights because he was in Polk County jail until
February 2015. Flowever, equitable tolling does not apply. Mathis was not
prevented in any way from asserting his rights as he would have been able to file
this suit from jail. See Williams v. Albertson's, Inc., 879 So. 2d 657, 659 (Fla. 5th
DCA 2004) (explaining Florida law allows for equitable tolling where “the
plaintiff has been misled or lulled into inaction, has in some extraordinary way
been prevented from asserting his rights, or has timely asserted his rights

3

Case: 18-14396

Date Filed: 12/02/2019

Page: 4 of 6

mistakenly in the wrong forum”). Therefore, the district court did not err in
dismissing his unlawful arrest claims as barred by the statute of limitations.
B. Unlawful Search Claim
The doctrine of “[qualified immunity shields public officials from suits
against them in their individual capacities for torts committed while performing
discretionary duties unless the tortious act violates a clearly established statutory or
constitutional right.” Zivojinovich v. Barner, 525 F.3d 1059, 1071 (11th Cir.
2008). If the official was acting within the scope of his discretionary authority, the
burden shifts to the plaintiff to show that the official is not entitled to qualified
immunity. Skopv: City of Atlanta, 485 F.3d 1130, 1136-37 (11th Cir. 2007).
Overcoming the official’s qualified immunity defense ordinarily involves a
two-part inquiry considering (1) whether facts alleged or shown by the plaintiff
make out a violation of a constitutional right, and (2) whether the right violated
was clearly established at the time of the official’s alleged misconduct. Roberts v.
Spielman, 643 F.3d 899, 904 (11th Cir. 2011). Both elements must be satisfied to
overcome qualified immunity. Id.
The district court did not err in dismissing Mathis’s unlawful search claim
because Vizcarrondo is entitled to qualified immunity. See Griffin Indus., Inc. v.
Irvin, 496 F.3d 1189, 1199 (11th Cir. 2007) (stating when reviewing a motion to
dismiss on qualified immunity grounds, we determine whether a complaint sets
4

Case: 18-14396

Date Filed: 12/02/2019

Page: 5 of 6

forth a violation of a clearly established constitutional right de novo). First,
Vizcarrondo was acting within her discretionary authority when she conducted the
warrantless search of Mathis’s cell phone because she was per-forming-routine?
■investigatoryumonitormglof Mathis and his jail visits when the search occurred.
Second, while Mathis alleged a constitutional violation—the warrantless search of
his cell phone—that right was not clearly established in 2011 when the alleged
unlawful search took place. It was not until 2013 and 2014, two to three years
after the search of Mathis’s cell phone, that both the Florida Supreme Court and
the United States Supreme Court conclusively determined that warrantless searches
of cell phones were unconstitutional. See Smallwood v. State, 113 So. 3d 724, 73233 (Fla. 2013) (holding the search incident to arrest exception to the Fourth
Amendment warrant requirement does not permit an officer to search an arrestee’s
cellphone without a warrant); Riley v. California, 573 U.S. 373, 386 (2014)
(holding the police may not search digital information on a cellphone seized from
an arrested individual without a warrant). In Smallwood, the Florida Supreme
Court noted that prior to its decision in 2013, “such searches [had] been held both
valid and invalid by various state and federal courts.” Smallwood, 113 So. 3d at
728. Therefore, the constitutional right could not have been clearly established
when Vizcarrondo searched Mathis’s phone almost two years prior to the

5

Case: 18-14396

Date Filed: 12/02/2019

Page: 6 of 6

Smallwood decision. Because the right was not clearly established at the time she
searched Mathis’s cell phone, Vizcarrondo is entitled to qualified immunity.
II. CONCLUSION
The district court did not err in dismissing Mathis’s complaint because
Mathis’s unlawful arrest claims were barred by the statute of limitations and
Vizcarrondo’s search of Mathis’s cell phone was protected by qualified immunity. i
AFFIRMED.

As we affirm the district court’s holding on these issues, we need not address the
district court’s alternate holding that Mathis was not entitled to punitive damages under 42
U.S.C. § 1997e(e).
i

6

Case 8:17-cv-00554-JDW-TGW Document 38

Filed 09/13/18 Page 1 of 7 PagelD 366

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ARNOLD MAURICE MATHIS,
Plaintiff,
Case No. 8:17-cv-554-T-27TGW

v.
ZULAIKA ZOE VIZCARRONDO,
Defendant.
ORDER

BEFORE THE COURT is Defendant’s Motion to Dismiss Plaintiff’s Second Amended Complaint
(Dkt. 23), which Plaintiff opposes (Dkt. 33). The motion to dismiss is GRANTED.
I. ALLEGATIONS OF THE SECOND AMENDED COMPLAINT
In his Second Amended Complaint (Dkt. 12), Plaintiff alleges the following pertinent facts: On
December 16, 2011, Jarvis Jiles filed a complaint with the Polk County Sheriffs Department alleging that
he was sexually abused by Plaintiff in 2004 and 2005. Jiles was interviewed by officers twice that day, then
subsequently made a “controlled call” to Plaintiff.
Plaintiff was arrested and taken into custody on December 17,2011. His cellular phone was seized.
Defendant discovered the password for Plaintiff s cellular phone and, without a warrant, searched the phone
on December 19, 2011. On December 22, 2011, a warrant was issued to search Plaintiff s cellularphone,
On that same day, Defendant prepared an affidavit that was _the basis for 28 charges of sexual offenses by
Plaintiff against victims other than Jiles.

i

1On April 25, 2014, during a hearing on Plaintiffs motion to suppress, “testimony came to light that
1The charges against Plaintiff for his offenses on Jiles were dismissed because the .statute of limitations
expired.

append fx B

Case 8:17-cv-00554-JDW-TGW Document 38

e

Filed 09/13/18 Page 2 of 7 PagelD 367

raised a suspicion that there could have been an unlawful search” of Plaintiff s cellular phone before the
search warrant was issued on December 22, 2011. In December 2014, Plaintiff retained an expert who
1 concluded that Plaintiffs cellular phone had been accessed, and the photo gallery therein viewed, on
' December 19, 2011. After the expert’s deposition was taken on February 2, 2015, all 28 charges against
■Plaintiff were dismissed by the State on February 3, 2015.
Plaintiff contends that Defendant’s warrantless search of his cellular phone on December 19, 2011
violated his rights under the Fourth and Fourteenth Amendments to the United States Constitution:

As

relief, he seeks $1,000,000.00 in monetary damages, and an injunction directing the Polk County Sheriff s
Department to: 1) “institute a Bill of Rights training program”; 2) “certify that its officers are so trained as
to the scope of cell phone searches”; and 3) “revoke the certifications of [Defendant] who wronged
[Plaintiff].”
II. STANDARD OF REVIEW
Defendant moves to dismiss Plaintiffs Second Amended Complaint pursuant to Rule 12(b)(6), Fed.
R. Civ. P. Rule 12(b)(6) states that any defendant may assert the defense of “failure to state a claim upon
which reliefcan be granted” to a claim for relief. Defendant argues entitlement to qualified immunity, which
ma y be asserted in a motion to dismiss under Rule 12(b)(6). Skrtichv. Thornton, 280F .3d 1295, 1306 (11th
Cir. 2002).
In deciding whether to grant a motion to dismiss on this ground, a court must accept “the allegations
in the complaint as true and construe them in the light most favorable to the nonmoving party.” Starosta
v. MBNA America Bank. N.A., 244 Fed. Appx. 939, 941 (11th Cir. 2007) (unpublished) (quoting from
Manuel v. Convergys Corp., 430 F.3d 1132, 1139 (11th Cir. 2005)). However, “a plaintiffs obligation to
provide the ‘grounds’ of his ‘entitlement] to relief requires more than labels and conclusions. . . . ” Bell
2

Case 8:17-cv-00554-JDW-TGW Document 38 Filed 09/13/18

Page 3'of 7 PagelD 368

Atlantic Corp. etal. v. Twombly, 127 S. Ct. 1955,1964-65 (2007) (alteration in original) (citations omitted).
“Factual allegations must be enough to raise a right to relief above the speculative level.” Id.
Although the court must afford a pro se litigant wide leeway in pleadings, a pro se litigant is
nonetheless required to satisfy necessary burdens in that he is “not relieved of his obligation to allege
sufficient facts to support a cognizable legal claim,” and “to survive a motion to dismiss, a Plaintiff must
do more than merely label his claims.” Excess Risk Underwriters. Inc. v. Lafayette Ins. Co., 208 F. Supp.
2d 1310,1313 (S.D. Fla. 2002). Dismissal is, therefore, permitted “when on the basis of a dispositive issue
of law, no construction of the factual allegations will support the cause of action.” Glover v. Liggett Group.
Inc., 459 F.3d 1304, 1308 (11th Cir. 2006) (citing Marshall City Bd. OfEduc. v. MarshalLCity Gas Dist.,
992 F.2d 1171, 1174 (11th Cir. 1993)).
III. SUMMARY OF THE ARGUMENTS
Defendant contends that the Second Amended Complaint should be dismissed because: 1) Plaintiff s
claims are barred by the statute of limitations; 2) she is entitled to qualified immunity; and 3) Plaintiff is not
entitled to the monetary damages and injunctive relief he requests. Plaintiff argues that: 1) his claims are
not barred by the statute of limitations because he did not discover Defendant’s “fraud” until after the statute
of limitations expired; 2) Defendant is not entitled to qualified immunity; and 3) he is entitled to nominal
and punitive damages.
IV. DISCUSSION
A. Defendant is entitled to qualified immunity
Defendant argues that she is entitled to qualified immunity. “[Government officials performing
discretionary functions generally are shielded from liability for civil damages insofar as their conduct does
*,• —

V.*-

not violate clearly established statutory or constitutional rights of which a reasonable person would have
3

Case 8:17-cv-00554-JDW-TGW Document 38

Filed 09/13/18 Page 4 of 7 PagelD 369

known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). As such, qualified immunity allows officials to
“carry out their discretionary duties without fear of personal liability or harassing litigation[.]” Lee v.
Ferraro, 284 F.3d 1188, 1194 (11th Cir.2002) (internal citations omitted). “[0]nly in exceptional
circumstances will government actors have no shield against claims made against them in their individual
capacities.” Lassiter v. Alabama A &M Univ. Bd. of Trustees, 28 F.3d 1146,1149 (11th Cir. 1994) (enbanc)
(citations and emphasis omitted). Because qualified immunity is immunity from suit rather than a mere
defense to liability,” Mitchell v. Forsyth, 472 U.S. 511,526 (1985), its purposes would be “thwarted if a case
is erroneously permitted to go to trial.” Baltimore v. City of Albany, Georgia, 183 Fed. App x 891, 895
(11th Cir.2006) (citations and quotations omitted).
To qualify for qualified immunity, the public official must first establish that she was acting within
the scope of her discretionary authority. Ferraro, 284 F.3d at 1194. Once that showing is made, the burden
shifts to the plaintiff to show that qualified immunity should not apply. Lewis v. City ofW. Palm Beach, Fla.,
561 F.3d 1288, 1291 (11th Cir.2009). The plaintiff must show that, considered in the light most favorable
to the party asserting the injury, the officer’s conduct violated a constitutional right. Saucier v. Katz, 533
U.S. 194,201 (2001). If no constitutional right was violated, the defendant is entitled to qualified immunity.
If the facts establish a constitutional violation, the plaintiff must show that, at the time the incident occurred,
eve ry reasonable [] officer would have realized the acts violated already clearly established federal law.”
Garrettv.Athens-Clarke Co., 378 F.3d 1274,1278-79 (11th Cir.2004) (citingSaucier, 544U.S. at201-02).
1. Whether Defendant was acting within the scope of her discretionary authority
There is no dispute that Defendant, a law enforcement officer, was acting within the scope of her
discretionary authority in searching Plaintiffs cellular phone after he was arrested. See Holloman ex rel.
Holloman v. Harland, 370 F.3d 1252, 1265 (11th Cir. 2004) (a government employee is acting within the
4

Case S:17-cv-00554-JDW-TGW Document 38 Filed 09/13/18

Page 5 of 7 PagelD 370

scope of discretionary authority when the acts in question “are of a type that fell within the employee’s job
responsibilities.”).
2. Whether Defendant violated Plaintiffs constitutional rights
Plaintiff contends that Defendant violated his constitutional rights when she searched his cellular
phone without a warrant. He is correct. Riley v. California, 134 S. Ct. 2473, 2493 (2014) ( “[A] warrant is
generally required before a ... search [of a cell phone], even when a cell phone is seized incident to arrest.”).
Accordingly, taking the allegations in the Second Amended Complaint as true, Defendant’s warrantless
search of the cell phone on December 19,2011, constituted an unreasonable search in violation of the Fourth
Amendment. See Carpenter v. United States, 138 S. Ct. 2206, 2213 (2018) (“The Fourth Amendment
protects the right of the people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures.”) (internal quotation marks and alteration omitted); Riley, 134 S.Ct. at 2485-86 (under
search incident to amest exception, interest in protecting police officers’ safety did not justify dispensing
with warrant requirement before officers could search digital data on arrestees cell phones).
c. Whether Defendant violated clearly established law
Even though Defendant’s search of the cell phone on violated the Fourth Amendment, Plaintiff has
failed to show that the law was clearly established when the search was conducted. “A right is clearly
established only if its contours are sufficiently clear that a reasonable official would understand that what
he is doing violates that right. In other words, existing precedent must haye placed the statutory or
constitutional question beyond debate. This doctrine provides government officials breathing room to make
reasonable but mistaken judgments, and protects all but the plainly incompetent or those who knowingly
violate the law.” Carroll v.- Carman,

U.S.

_______ ?

punctuation omitted).
5

135 S. Ct. 348, 350 (2014) (internal citations and

Case 8:17-cv-00554-JDW-TGW Document 38

Filed 09/13/18 Page 6 of 7 PagelD 371

The inquiry is undertaken “in light of the specific context of the case, not as a broad general
proposition.” Brosseauv. Haugen, 543 U.S. 194, 198(2004). There need not be a case directly “onpoint”
before it may be concluded that the law is clearly established,pbut existing precedent must have placed the
statutory or constitutional question beyond deb_ate.” Stanton v. Sims, 521 U.S. 3,6 (2013) (citation omitted)j
See also Mullenix v. Luna,___U.S.___, 136 S. Ct. 305, 308 (2015). “In this circuit, rights are ‘clearly
established’ by decisions of the Supreme Court, [the Eleventh Circuit Court of Appeals], or the highest court
of the state in which the case arose.” Thomas ex rel. Thomas v. Roberts, 323 F.3d 950,953 (l_lth Cir. 2003).
Plaintiff cannot establish that the warrantless search of his cell phone was a clearly established
constitutional violation in 2011. The issue was not clearly established in the Eleventh Circuit at the time.
See United States v. Allen, 416 F. App’x 21,27 (11th Cir. 2011) (unpublished) (“Whether the warrantless
search of a cell phonejincident to arrest violates a person’s Fourth Amendment expectation of privacy is an
unanswered question in this Circuit. It is_a fairly difficult question, however, it is also a question that we
need not answer today.”). And it was not until 2013 that the Florida Supreme Court decided that law
enforcement officers are generally required to obtain a search warrant before searching the a cell phone that
has been seized incident to a lawful arrest. See Smallwood v. State, 113 So.3d 724 (Fla.2013). Finally, Riley
was not decided until 2014. Even though Defendant committed a constitutional violation in searching
Plaintiffs cell phone on December 19, 2011, Plaintiffs constitutional right to be protected from a
warrantless search of his cell phone was not clearly established at that time. Accordingly, Defendant is
entitled to qualified immunity.
B. Plaintiff is not entitled to injunctive relief
Plaintiff requests an injunction directing the Polk County Sheriff s Department to institute a ‘ Bill
of Rights” training program, and revoke Defendant’s “certifications.” Because the Sheriff is not a party to
6

Case 8:17-cv-00554-JDW-TGW Document 38 Filed 09/13/18

Page 7 of 7 PagelD 372

this case, injunctive relief against him is unavailable. See in re Infant Formula Antitrust Litigation, MDL
878 v. Abbott Laboratories, 72 F.3d 842, 842-43 (11th Cir.1995) (the person from whom the injunctive
relief is sought must be a party to the underlying action). Accordingly, Plaintiff s request for injunctive
relief must be denied.2
Defendant’s Motion to Dismiss Plaintiffs Second Amended Complaint (Dkt. 23) is therefore
GRANTED. The Clerk shall enter judgment against Plaintiff, and close this case.
DONE and ORDERED on September 13th, 2018.

/s/ lames €. <K)fiittemore
JAMES D. WHITTEMORE
United States District Judge
Copies to: Pro Se Plaintiff; Counsel of Record

2 It is unnecessary to address Defendant’s argument that Plaintiffs claims are barred by the statute of limitations
in light her entitlement to qualified immunity.

7

Case: 18-14396

Date Filed: 04/09/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14396-AA
ARNOLD MAURICE MATHIS,
Plaintiff - Appellant,
versus
ZULAIKA ZOE VIZCARRONDO,
Defendant - Appellee,
JAMES MICHAEL EVANS,
Defendant.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITION!SI FOR REHEARING AND PETITIONS! FOR REHEARING EN BANC
BEFORE: ROSENBAUM, BLACK, and MARCUS, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

appendix C

